ALABAMA COURT OF CRIMINAL APPEALS

CR-19-0988
Moses Jackson v. State of Alabama (Appeal from Calhoun Circuit Court:
CC01-1358.61; CC01-1359.61; CC01-1360.61; CC01-1661.61)

CERTIFICATE OF JUDGMENT
WHEREAS, the appeal in the above referenced cause has been duly
submitted and considered by the Court of Criminal Appeals; and
WHEREAS, the judgment indicated below was entered in this cause on
December 11th 2020:
Affirmed by Memorandum.
NOW, THEREFORE, pursuant to Rule 41 of the Alabama Rules of
Appellate Procedure, it is hereby certified that the aforesaid judgment is
final.
Witness.D. Scott Mitchell, Clerk
Court of Criminal Appeals, on this
the 12th day of March, 2021.

rD.

T'sAJt—

Clerk
Court of Criminal Appeals
State of Alabama
cc

Hon. Louie Harold Turner, Jr, Circuit Judge
Hon. Kim McCarson, Circuit Clerk
Moses Jackson, Pro Se
Laura I. Cuthbert, Asst. Attorney General

\

(.

IN THE SUPREME COURT OF ALABAMA

March 12, 2021
1200263
Ex parte Moses Jackson. PETITION FOR WRIT OF CERTIORARI TO THE
COURT OF CRIMINAL APPEALS (In re: Moses Jackson v. State of
Alabama) (Calhoun Circuit Court: CC-01-1358.61; CC-01-1359.61;
CC-01-1360.61; CC-01-1661.61; Criminal Appeals : CR-19-0988).
CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced
cause has been duly submitted and considered by the Supreme Court of
Alabama and the judgment indicated below was entered in this cause on
March 12, 2021:
Writ Denied. No Opinion. Bolin, J. - Parker, C.J., and Wise, Sellers, and
Stewart, JJ., concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS
HEREBY ORDERED that this Court's judgment in this cause is certified on
this date. IT IS FURTHER ORDERED that, unless otherwise ordered by this
Court or agreed upon by the parties, the costs of this cause are hereby taxed
as provided by Rule 35, Ala. R. App. P,
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the
foregoing is a full, true, and correct copy of the instrument(s) herewith set out as same appear(s)
of record in said Court.
Witness my hand this 12th day of March, 2021.

UUa.
Clerk, Supreme Court of Alabama

«'

RELEASED
REL: 12/11/2020

DEC 1 1 2020
CLERK
ALA COURT CRIMINAL APPEALS

Notice: This unpublished memorandum should not be cited as precedent. See Rule 54, Ala. R. App. P. Rule 54(d)
states, in part, that this memorandum "shall have no precedential value and shall not be cited in arguments or
briefs and shall not be used by any court within this state, except for the purpose of establishing the application
of the doctrine of law of the case, res judicata, collateral estoppel, double jeopardy, or procedural bar."

ALABAMA COURT OF CRIMINAL APPEALS

CR-19-0988

Moses Jackson v. State of Alabama
Appeal from Calhoun Circuit Court CC-01-1358.61; CC-01-1359.61;
CC-1360.61; and CC-01-1661.61

MEMORANDUM DECISION
MINOR, Judge.
Moses Jackson appeals the Calhoun Circuit Court's judgment
summarily dismissing his Rule 32, Ala. R. Crim. P., petition for
postconviction relief, in which he challenged his 2003 guilty-plea
convictions for three counts of first-degree robbery and one count of
attempted murder and his resulting sentences, as a habitual offender, of
life imprisonment for each conviction. Jackson did not appeal his
convictions and sentences.

Jackson filed the instant petition, his second,1 on August 28, 2018.2
(C. 10, 19.) As best we can discern, Jackson alleged in his petition (1) that
the trial court lacked jurisdiction to accept his guilty plea because he had
accomplices and the State illegally prosecuted him under the wrong
sections of the Code of Alabama 1975; (2) that his convictions for
attempted murder and robbery violated double-jeopardy principles.
Jackson filed an amendment to his petition, in which he mostly repeated
his earlier allegations and added a claim that his plea was void because
the court reporter, under the records-retention policy of the Alabama
Unified Judicial System ("UJS"), destroyed the records of his guilty-plea
proceedings ten years after his plea. (C. 48.)
The State responded and moved to dismiss the petition. (C. 60.) The
State asserted that the claims in the petition lacked merit and were
untimely, successive, insufficiently pleaded, and precluded. See Rules
32.7(d), 32.2(c), 32.2(b), 32.3, 32.6(b), and 32.2(a)(2)"and (a)(4), Ala. R.
Crim. P.
Jackson responded to the State, arguing that the State's response
was untimely and a crime of "conspiracy" and "fraud." And Jackson noted
the State filed it on a holiday, which, Jackson said, the State lacked
authority to do. (C. 63.)
The circuit court summarily dismissed the petition on July 23, 2020,
for the reasons the State gave in its response. (C. 92.) Jackson timely
Uackson filed his first Rule 32 petition in October 2014. The circuit
court denied that petition. After remanding the matter for a hearing on
one of Jackson's claims, this Court affirmed the denial of his petition. See
Jackson v. State (No. CR-14-1166), 231 So. 3d 1137 (Ala. Crim. App. 2016)
(table). The Alabama Supreme Court denied Jackson's petition for a writ
of certiorari. Ex parte Jackson (No. 1151101), 233 So. 3d 939 (Ala. 2016)
(table). See Nettles v. State. 731 So. 2d 626, 629 (Ala. Crim. App. 1998)
("this Court may take judicial notice of its own records" (citing Hull v.
State. 607 So. 2d 369, 371 n.l (Ala. Crim. App. 1992)).
2The circuit court granted Jackson's request to proceed in forma
pauperis. (C. 58.)

appealed. (C. 93.)
Rule 32.7(d), Ala. R. Crim. P., permits a circuit court to summarily
dismiss a Rule 32 petition if the claims in the petition are insufficiently
pleaded, precluded, or without merit. This Court reviews a circuit court's
summary dismissal of a Rule 32 petition for an abuse of discretion. Lee v.
State. 44 So. 3d 1145, 1149 (Ala. Crim. App. 2009). Under most
circumstances, "we may affirm a ruling if it is correct for any reason."
Bush v. State. 92 So. 3d 121, 134 (Ala. Crim. App. 2009).
On appeal, Jackson generally reasserts the claims he raised in the
circuit court.3 Jackson has no right to relief.
Jackson first reiterates his claim that his plea is void because, he
says, the court reporter illegally destroyed the record of his guilty-plea
proceeding. This surfaced in Jackson's appeal from th'e judgment denying
his first Rule 32 petition. In response to this Court's order remanding the
cause, the circuit court found that the court reporter had destroyed the
records after ten years under a UJS records-retention policy.4 Jackson

3Jackson does not appear to reassert his double-jeopardy claim. But
that claim, even if he reasserted it, is the same or similar to the double­
jeopardy claim he raised in his first petition and was thus proper for
summary dismissal. See Rule 32.2(b), Ala. R. Crim. P. See also Jackson,
mem. op. in CR-14-1166 at 2-3 ("Jackson alleged in his petition ... [tjhat
his conviction for attempted murder violates double-jeopardy principles
because, he said, the indictment charged him "twice with one act.").
4This Court stated in its memorandum:
"The supplemental record contains all documents relating to
Jackson's pleas and sentencing but it does not include a
transcript of the plea colloquy and sentencing hearing.
“ffowever, the circuit court stated in its order on second remand
thaTTiecanfip Jarksari did not anneal his convictions and
sentences no transcript had been prepared at that time and
that the court reporter's sternographic notes of the plea colloqy
had been destroyed after 10 yearsTiacTpUSsed in accordance

contends this is a jurisdictional issue. Jackson's argument lacks merit.
First. Jackson's attack&ar this fVmrt's 9.01 fi affirmance of the denial—
of his first Rule 32 petition—which included this Court s statements about
the unavailability of the transcript—are untimely. Second, Jackson cites
no authority showing that his claim is jurisdictional, and we are^aW-are-of--.
iltv. and the
rin such authorityrecord in Jackson's appeal from the denial of his first Rule 32 petition
includes all Hnnnmpritg rplat.irLgJ:Q-h.i.R-p3^s„Thosfi documents show that
he pleaded guilty. A claim based on those pleas—such as a claim the
"pleas were involuntary—would be time-barred, and thus the lack of a
"transcript of those proceedings is, at most, harmless error.0 Ch Fincher v.
-SfafeTSJTSo. 2d 8751*78 (Ala. Unm. App. 2002) CUlaimsjglatingiiijJ^—
voluntariness of guilty pleas are not jurisdictional^^
Jackson's second argument on appeal challenges "the charging
instrument"—alleging that the State prosecuted him under the wrong

with the Alabama Unified Judicial System's Records Retention
Schedule for the Circuit, District, Juvenile, and Municipal
courts; therefore, it was not possible to provide a transcript of
the plea colloquy and sentencing hearing. Neither party
requested permission to file additional briefs on return to
second remand."
Jackson, mem. op. in CR-14-1166 at 4.
5In his reply bninf, Jackson argues that with no transcript of thaguilty-plea proceedings, the record cannot show that a colloquy occurred
or that the circuit, court. pronounced sentence. Jackson did not raise this
claim below, and thus it is not properly before us. Woodward vJState, 276
Sngr1 713. 788 (Ala Hri™ App.. 9.0181 ("It is well settled that '[a]n
appellant cannotmaise-an is-su^-on-appeal from the denial of a Rule 32~
petition which was not"raised in the Rule 32_petition.' Arrington v. State,
716 So. 2d 237, 239 (Ala. Crim. App. 1997)."); Mvrick v. State, 787 So. 2d
713, 718 (Ala. Crim. App. 2000) ("This court will not consider an argument
raised for the first time on appeal; its review is limited to evidence and
arguments considered by the trial court.").

section of the Code. Jackson earnestly contends that this claim differs
from a claim he raised m his first Rule 32 petition. But his earnestness
does not make it a different claim,6 nor does it make a jurisdictional one.
Jackson's claim challenges the indictments as defective, a
nonjurisdictional claim.7 See, e.g.. Ex narte Seymour. 946 So. 2d 536, 539
(Ala. 2006). The circuit court properly dismissed this claim as successive
under Rule 32.2(b), Ala. R. Crim. P., among other reasons.
Jackson's final argument is that the circuit court should not have
considered the State's response and motion to dismiss his Rule 32 petition
because, Jackson says, the State untimely filed it. This argument lacks ;
merit.
Rule 32.7(a), Ala. R. Crim. P., provides, in relevant part:

6In his first petition, Jackson alleged:
"[Bjecause he was aided and abetted in the robberies by two
codefendants, he should have been indicted for second-degree
robbery with the indictments alleging the essential element
that he was aided in the robbery by other participants, but
that he was charged with first-degree robbery and the
indictments failed to allege that he was aided in the robberies
by other participants."
Jackson, mem. op. in CR-14-1166 at 6. In his second petition, Jackson
THIeges~bhat "the DAlmparted" a criminal code section ttiatAIackson says
did not apply to his behavior. Jackson says because he had accomplices,
the State should have prosecuted him for second-degree robbery and thirddegree assault. (C. 33.) He argues that his "illegal" convictions and
sentences violate the Constitution. (C. 35-38.) At root, this is the same
claim he raised in his first petition.
7In his brief on appeal, Jackson tries to recast his claim as one
alleging that the indictments did not charge any offense under Alabama
law. That claim is not properly before us because Jackson did not raise it
in the circuit court. Woodward, supra; Mvrick, supra. And even if the
claim were properly before us, it lacks merit.

"Within thirty (30) days after the service of the petition,
or within the time otherwise specified bv the court, the district
attorney ... shall file with the court and send to the petitioner
or counsel for the petitioner, if any, a response, which may be
supported by affidavits and a certified record or such portions
thereof as are appropriate or material to the issues raised in
the petition."
(Emphasis added.) In its order summarily dismissing Jackson's petition,
the circuit court stated:
"Upon review of the Rule 32 Petition for Relief from Conviction
or Sentence filed by Petitioner, the State of Alabama's
Response, Petitioner's Response in Opposition to DA Response
and all other pleadings, the Court adopts the State's Response
and is of the opinion that the Petition is due to be denied."
(C. 92.) By accepting and considering the State's response, the circuit
court implicitly extended the time for the State to respohd beyond the 28
days it permitted in its October 12, 2018, order. See Owens v. State. 659
So. 2d 977, 978 (Ala. Crim. App. 1994) ("The rule specifically allows the
trial court to specify a time period other than 30 days and, by accepting
the State's untimely response, the trial court by implication has done so.").
Thus, the circuit court did not err in considering the State's response.
The judgment of the circuit court is affirmed.
AFFIRMED.
Windom, P.J., and Kellum, McCool, and Cole, JJ., concur.

Additional material
from this filing is
available in the
Clerk's Office.

